September 8, 2003

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT: Audit Report – Capping Report on the Postal Service’s Sexual
         Harassment Prevention Measures in 18 District Offices
         (Report Number LH-AR-03-011)

This report presents the results of our audit of sexual harassment prevention measures
in 18 district offices located in nine areas (2 districts each) of operation (Project
Number 02YG010LH000). Our overall objective was to determine if the districts had
adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report summarizes the conditions found in the 18 districts and focuses on
management’s actions taken or planned to correct the issues identified and implement
recommendations made in our reports. This report is based on a self-initiated review,
and is the tenth in a series of ten reports we have issued regarding sexual harassment
prevention measures Postal Service-wide.

We found that the 18 districts’ sexual harassment policies and procedures were
adequate, most of the employees found responsible for sexual harassment or
inappropriate actions/comments were appropriately disciplined or corrective action was
taken, and most managers/supervisors found responsible for sexual harassment or
inappropriate comments/actions were considered for exclusion from the Pay for
Performance Program. We also found that the districts effectively addressed more than
half of the sexual harassment complaints we reviewed and, although no Postal Service
national policy existed regarding the retention time for informal complaint files, most of
the districts retained files indefinitely and the storage of files was adequate. Further, we
found that documentation was lacking to support that all sexual harassment prevention
training had occurred.

Each of the nine reports included recommendations to officials in the nine areas of
operation for corrective actions. While area officials disagreed with some
recommendations, they provided corrective actions taken or planned for most of the
recommendations, which we considered responsive to our recommendations.
Management’s comments and our evaluation of these comments are included in the
report.
This report included seven recommendations to help the Postal Service improve its
sexual harassment prevention program. Management agreed with recommendation 1
and part of recommendations 4 and 7. The actions taken or planned should correct
some of the issues identified in the report. However, management did not agree with
recommendations 2, 3, 5, and 6 and part of 4 and 7. The Office of Inspector General
(OIG) considers recommendations 2 and 3 as unresolved and plans to pursue them
through the formal audit resolution process.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Chris Nicoloff, director, Labor Management, at (214) 775-9114, or me at
(703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment
cc: Murry E. Weatherall
    Sylvester Black
    William J. Brown
    Danny C. Jackson
    Al Iniquez
    Jerry D. Lane
    George L. Lopez
    Gary L. McCurdy
    David L. Solomon
    Jon M. Steele
    Akinyinka O. Akinyele
    Ellis A. Burgoyne
    Edward B. Burke
    Winton A. Burnett
    Peter G. Captain
    Lizbeth J. Dobbins
    David C. Fields
    Michael S. Furey
    Timothy C. Healy
    Dallas W. Keck
    Lawrence K. James
    Donald Marshall
    Eugene H. Rear
    Thomas F. Rosati
    Eduardo H. Ruiz
    Richard S. Shaver
    John H. Talick
    E. W. Waldemayer, Jr.
    Susan M. Duchek
Capping Report on the Postal Service’s Sexual Harassment                   LH-AR-03-011
 Prevention Measures in 18 District Offices


                                  TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                   1

     Background                                                                 1
     Objective, Scope, and Methodology                                          1
     Prior Audit Coverage                                                       1

 Part II

 Audit Results                                                                  3

     Policies and Procedures Adequate                                           3

     Most Employees Appropriately Disciplined or Corrective Action Taken        4

     Most Managers/Supervisors Considered for Exclusion from Pay for            5
      Performance

     Most Complaints Effectively Addressed                                      6
     Recommendations                                                            8
     Management’s Comments                                                      8
     Evaluation of Management’s Comments                                        8

     File Retention and Storage Adequate in Most Districts                     13
     Recommendation                                                            14
     Management’s Comments                                                     14
     Evaluation of Management’s Comments                                       14

     Documentation Lacking to Support Employees Received Sexual                15
      Harassment Prevention Training
     Recommendations                                                           16
     Management’s Comments                                                     17
     Evaluation of Management’s Comments                                       17
Capping Report on the Postal Service’s Sexual Harassment              LH-AR-03-011
 Prevention Measures in 18 District Offices



 Appendix A.      List of Audit Reports for Nine Areas of Operation       20
 Appendix B.      General Findings in Each District                       21
 Appendix C.      Objective, Scope, and Methodology                       22
 Appendix D.      Management’s Comments                                   25
Capping Report on the Postal Service’s Sexual Harassment                                                 LH-AR-03-011
 Prevention Measures in 18 District Offices


                                        EXECUTIVE SUMMARY
    Introduction                    This report summarizes the results of an audit performed by
                                    the Office of Inspector General (OIG) to review the Postal
                                    Service’s sexual harassment prevention measures in
                                    18 districts, located in the 9 areas of operations.
                                    Specifically, the report summarizes the conditions found and
                                    focuses on management’s actions taken or planned to
                                    correct the issues identified and implementation of
                                    recommendations made in our reports. This review was
                                    self-initiated to determine if the districts had adequate
                                    policies and procedures in place to prevent sexual
                                    harassment in the workplace, and to effectively address
                                    sexual harassment complaints to mitigate liability.

    Results in Brief                We found that all 18 districts’ sexual harassment policies
                                    and procedures were adequate and that most of the
                                    employees found responsible for sexual harassment or
                                    inappropriate actions/comments were appropriately
                                    disciplined or corrective action was taken. We also found
                                    that most managers/supervisors found responsible for
                                    sexual harassment or inappropriate comments/actions were
                                    considered for exclusion from the Pay for Performance
                                    Program. In addition, we found that districts effectively
                                    addressed 148 of the 252 sexual harassment complaints
                                    reviewed. We also found, although no Postal Service
                                    national policy existed regarding the retention time for
                                    informal complaint files, retention of files was adequate in
                                    16 of the 18 districts, and the storage of files was adequate
                                    in 13 of the 18 districts.

                                    Finally, we could not determine whether 2,225 of the
                                    2,700 employees we sampled received training in
                                    understanding and preventing sexual harassment because
                                    documentation in the form of employee signatures was
                                    lacking to support employee attendance.1




1
  The reports issued to the nine areas of operation did not discuss the districts’ compliance with the Postal Service’s
fiscal year (FY) 2000 national sexual harassment training policy.




                                                            i
Capping Report on the Postal Service’s Sexual Harassment                            LH-AR-03-011
 Prevention Measures in 18 District Offices




 Summary of                    The report includes seven recommendations to help the
 Recommendations               Postal Service improve its sexual harassment prevention
                               program in the 18 districts visited. Specifically, we
                               recommended management revise Postal Service policy to
                               include a requirement that: (1) district Equal Employment
                               Opportunity offices notify district management of all
                               complaints of sexual harassment or inappropriate
                               actions/comments of a sexual nature, (2) district managers
                               establish controls to ensure that managers and supervisors
                               effectively address all sexual harassment complaints and
                               inappropriate actions/comments of a sexual nature,
                               (3) managers/supervisors fully document detailed evidence
                               of the actions taken to address all complaints, and (4) all
                               informal complaint files are stored in a central location at the
                               district or area level Human Resources office and be
                               retained for at least 4 years after resolution of the complaint.

                               We also recommended management establish a policy that
                               requires: employee signatures on training sign-in sheets as
                               proof they received sexual harassment prevention and
                               awareness training, controls to review sign-in sheets to
                               ensure that all employees received the required training,
                               and the retention of employee sign-in sheets at a central
                               location for at least 4 years.

 Summary of                    Management agreed with recommendation 1 and part of
 Management’s                  recommendations 4 and 7. Management did not agree,
 Comments                      however, with recommendations 2, 3, 5, and 6, and part of
                               recommendations 4 and 7.

                               Management agreed with recommendation 1 and stated on
                               March 24, 2003, district Human Resource managers were
                               advised of the Postal Service’s policy that instructed the
                               district Equal Employment Opportunity office to notify
                               management of all complaints of sexual harassment or
                               inappropriate actions/comments of a sexual nature. Copies
                               of the documents were provided to the OIG.

                               Management disagreed with recommendation 2 and stated
                               current controls were already in place and that procedures
                               were set forth in Publication 552, Manager’s Guide to
                               Understanding Sexual Harassment. Management agreed
                               that managers and supervisors must make every effort to
                               effectively address all sexual harassment complaints and



                                                   ii
Capping Report on the Postal Service’s Sexual Harassment                          LH-AR-03-011
 Prevention Measures in 18 District Offices


                               that area and district offices would be instructed by
                               September 2003 to ensure mandatory procedures for
                               responding to and investigating sexual harassment
                               complaints were in place.

                               Management disagreed with recommendation 3 and stated
                               that while it agreed that allegations must be taken seriously
                               and addressed, not all complaints would result in a full
                               written record with detailed evidence of the actions taken.
                               Management stated, however, that area and district offices
                               would be instructed by September 2003 to document
                               contact attempts in a timely fashion.

                               Additionally, management stated the report failed to
                               distinguish between the Equal Employment Opportunity
                               complaint process and the Postal Service’s management
                               inquiry process. Management also stated that the terms
                               “formal” and “informal” as used in the report were confusing
                               because both are used in the Equal Employment
                               Opportunity process.

                               Management disagreed with the part of recommendation 4
                               that recommended complaint files be stored at a central
                               location. Management agreed, however, to retain informal
                               complaint files for at least 4 years to the extent they were
                               management inquiries and internal investigations. They
                               stated that area and districts would be instructed no later
                               than September 2003 to ensure employee files are
                               maintained in accordance with this policy.

                               Management disagreed with recommendation 5 to the
                               extent that it suggested employee signatures were the sole
                               means to prove attendance. However, management agreed
                               that employee training should be documented and offered
                               several other forms of documentation that could be used.
                               They further stated they would instruct areas and districts,
                               no later than September 2003, to implement procedures to
                               ensure training is documented using these methods.

                               Management also stated that the nine area reports issued
                               by the OIG did not discuss the district’s compliance with the
                               Postal Service’s FY 2000 national sexual harassment
                               training policy. They also stated the areas or headquarters
                               were not provided an opportunity to comment on whether or
                               not the 2,225 employees we sampled received the training.




                                                  iii
Capping Report on the Postal Service’s Sexual Harassment                         LH-AR-03-011
 Prevention Measures in 18 District Offices


                               Management disagreed with recommendation 6 that
                               districts should establish additional controls to review
                               training sign-in sheets. They stated, however, consistent
                               with operational requirements, areas and districts would be
                               instructed no later than September 2003, to ensure that
                               training is documented and that every effort is made to
                               schedule make-up training sessions.

                               Management agreed with the part of recommendation 7 that
                               recommended employee training documentation be retained
                               for at least 4 years. Management disagreed, however, that
                               the documents be stored at a central location. Management
                               stated that areas and districts would be instructed no later
                               than September 2003, to retain documents for 4 years and
                               to store them at each work location or a location determined
                               by area or district management. Management’s comments,
                               in their entirety, are included in Appendix D of this report.

 Overall Evaluation of         Management’s comments were responsive to
 Management’s                  recommendation 1 and part of recommendations 4 and 7
 Comments                      and the actions taken or planned should correct some of the
                               issues identified in the report. Management’s comments
                               were not responsive and did not meet the intent of
                               recommendations 2, 3, 5, 6, and part of recommendations 4
                               and 7.

                               Management’s actions taken or planned were partially
                               responsive to recommendation 2 because the mandatory
                               reporting requirement in Publication 552, does not provide
                               the control mechanism necessary to ensure that the
                               procedures for responding to and investigating sexual
                               harassment complaints are followed.

                               Management’s actions taken or planned were also not
                               responsive to recommendation 3. Their disagreement to
                               revise policy to require documentation of evidence of
                               actions taken to address complaints, contradicts their
                               agreement that areas and districts would be instructed by
                               September 2003 that contact attempts would be
                               documented in a timely fashion.

                               We do not agree with management that it was necessary to
                               distinguish between the Equal Employment Opportunity
                               process and management’s internal investigative process.
                               This report addressed the effectiveness of the Postal




                                                  iv
Capping Report on the Postal Service’s Sexual Harassment                           LH-AR-03-011
 Prevention Measures in 18 District Offices


                               Service’s process for addressing sexual harassment
                               complaints regardless of how they were filed. In that
                               regard, we reviewed all complaint files—formal and
                               informal.

                               In addition, while we agree that the Equal Employment
                               Opportunity Commission does not mandate procedures for
                               conducting internal investigations, we believe the
                               procedures used for formal complaints can and should be
                               applied to procedures used when resolving any sexual
                               harassment complaints. Our position is based on the fact
                               that employers can be held liable if the employer fails to
                               prove that it discharged its duty of reasonable care to
                               prevent and promptly correct any harassment. This
                               guidance does not stipulate that it is only applicable to the
                               formal process.

                               Regarding management’s concern of how we used the term
                               “informal” for complaints filed outside of the Equal
                               Employment Opportunity process, our intent was not to
                               confuse the reader, but rather provide an explanation of
                               terms that some readers may not be familiar with. We
                               believe the footnote in the report is clear regarding our use
                               of the term “informal.”

                               Management’s actions taken or planned were not
                               responsive to the part of recommendation 4 that required
                               informal complaint files be centralized. Publication 552
                               required the files be forwarded to the district Human
                               Resource manager. As stated in the report, a senior Postal
                               Service manager advised us the intent of that instruction
                               was to centralize the files.

                               Management’s actions taken or planned were also not
                               responsive to recommendations 5, 6, and 7 regarding
                               employee training issues. We believe requiring employee
                               signatures on sign-in sheets and managers’ review of those
                               sheets is the best assurance that all employees receive the
                               required training. Additionally, by centrally storing the
                               sign-in sheets there is some assurance of their availability,
                               if needed, to support training was provided.

                               We agree that the nine area reports did not discuss the
                               districts’ compliance with the Postal Service’s FY 2000
                               national sexual harassment training policy. This was




                                                   v
Capping Report on the Postal Service’s Sexual Harassment                         LH-AR-03-011
 Prevention Measures in 18 District Offices


                               intentional because issues related to national policies
                               are best addressed at the headquarters level. We do not
                               agree that the areas or headquarters were not provided
                               the opportunity to comment on whether or not the
                               2,225 employees sampled received the training. This report
                               was addressed to the headquarters level for their comment,
                               with copies sent to all 18 district managers and the 9 area
                               vice presidents. In addition, we made two telephone calls to
                               responsible headquarters officials during the report
                               comment period to discuss any questions they might have
                               about our findings. Our telephone calls were not returned.
                               Finally, we approved a headquarters’ request to extend the
                               30 day comment period by 2 weeks, that we understand
                               may have been used to solicit area and/or district
                               comments.

                               We view the disagreements on recommendations 2 and 3
                               as unresolved and plan to pursue them through the formal
                               audit resolution process.




                                                  vi
Capping Report on the Postal Service’s Sexual Harassment                                                LH-AR-03-011
 Prevention Measures in 18 District Offices


                                              INTRODUCTION
    Background                       Sexual harassment is defined by law as “[u]nwelcome
                                     sexual advances, requests for sexual favors, and other
                                     verbal or physical conduct of a sexual nature . . . when
                                     (1) submission to such conduct is made either explicitly or
                                     implicitly a term or condition of an individual’s employment;
                                     (2) submission to or rejection of such conduct by an
                                     individual is used as the basis for employment decisions
                                     affecting such individual; or (3) such conduct has the
                                     purpose or effect of unreasonably interfering with an
                                     individual’s work performance or creating an intimidating,
                                     hostile, or offensive working environment.” 2

                                     According to a Postal Service Law Department report, in
                                     fiscal years (FY) 2000 and 2001, the Postal Service paid
                                     approximately $4.9 million3 for sexual harassment
                                     judgments and settlements in the nine areas of operation.

                                     This report summarizes the conditions found in 18 districts
                                     located in the 9 areas of operation (2 districts each).
                                     Appendix A is a list of the nine audit reports we issued.
                                     Appendix B shows each of the districts and the general
                                     findings in each district.

    Objective, Scope, and            Our overall objective was to determine if the 18 districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix C.

    Prior Audit Coverage             On March 22, 2002, we issued a report entitled Sexual
                                     Harassment Prevention Measures in the Maine District,
                                     Report Number LH-AR-02-002. We found that although the
                                     district had adequate policies and procedures to prevent
                                     sexual harassment and effectively address related
                                     complaints in the Maine District, managers did not always
                                     comply with the procedures. Specifically, managers did not
                                     provide documentation that all employees had received
                                     sexual harassment awareness and prevention training, did
                                     not document that all sexual harassment complaints had

2
    29 C.F.R. § 1604.11(a).
3
    This amount represents 84 complaints. None of the complaints were within the scope of our review.



                                                           1
Capping Report on the Postal Service’s Sexual Harassment                       LH-AR-03-011
 Prevention Measures in 18 District Offices


                               been investigated, and had not taken preventive measures
                               when findings were inconclusive in sexual harassment
                               cases. Additionally, we found that some managers involved
                               in sexual harassment cases received incentive pay under
                               the Postal Service’s Pay for Performance Program.

                               We recommended that Postal Service managers establish
                               controls to ensure that: sexual harassment awareness
                               training is provided to all employees and training records
                               are complete; sexual harassment investigations are prompt
                               and fully documented in case files; employees directly
                               involved in cases where the evidence is inconclusive
                               receive sexual harassment training and monitoring; and
                               employees disciplined for sexual harassment be considered
                               for exclusion from the Pay for Performance Program.

                               Management’s comments were generally responsive to our
                               report and actions taken or proposed should address the
                               issues identified in the report.




                                                   2
Capping Report on the Postal Service’s Sexual Harassment                                               LH-AR-03-011
 Prevention Measures in 18 District Offices


                                             AUDIT RESULTS
    Policies and                    We found that all 18 districts had adequate policies and
    Procedures Adequate             procedures that should enable district management to
                                    identify and prevent sexual harassment or inappropriate
                                    actions/comments, and provide management with guidance
                                    to respond effectively to complaints, thus mitigating liability
                                    and costs. Specifically, the 18 districts established as
                                    district policies, Postal Service Publication 552, Manager’s
                                    Guide to Understanding Sexual Harassment, and
                                    Publication 553, Employee’s Guide to Understanding
                                    Sexual Harassment.

                                    In addition, we found that 13 of the 18 districts established
                                    sexual harassment fact-finding or investigative teams to
                                    investigate all complaints. We also found that 11 districts
                                    used Voice of the Employee surveys4 to monitor the work
                                    environment and when necessary provided additional
                                    training to raise awareness. Further, we found that
                                    nine districts had additional initiatives such as leadership
                                    programs and employee training that emphasized the
                                    prevention of sexual harassment.




4
  The Voice of the Employee survey was a data collection instrument that the Postal Service had established to help
improve workplace relationships and to ensure all employees were treated with fairness, felt safe in their workplace,
had opportunities to participate in improvements, and took pride in being Postal Service employees.



                                                          3
Capping Report on the Postal Service’s Sexual Harassment                                             LH-AR-03-011
 Prevention Measures in 18 District Offices




    Most Employees                 We found in 16 of the 18 districts we reviewed that most
    Appropriately                  employees responsible for sexual harassment or
    Disciplined or                 inappropriate actions/comments were appropriately
    Corrective Action              disciplined, or corrective action was taken. In the remaining
    Taken                          two districts, none of the employees were found responsible
                                   for sexual harassment or inappropriate actions/comments,
                                   and, therefore, discipline was not considered.

                                   Equal Employment Opportunity Commission 1990 and
                                   1999 guidelines recommended agencies take immediate
                                   and appropriate corrective action, including discipline, when
                                   sexual harassment occurred. Postal Service policy stated
                                   employees engaged in sexual harassment would be subject
                                   to disciplinary action, up to and including removal. The
                                   policy also stated that disciplinary action might result even if
                                   the conduct was not sexual harassment as defined by the
                                   law, but was inappropriate and of a sexual nature.

                                   Our review of 252 formal and informal5 sexual harassment
                                   complaints filed in the 18 districts showed that sexual
                                   harassment or inappropriate actions/comments were not
                                   substantiated in 109 of the complaints, substantiated in
                                   80, and inconclusive in 9. For the remaining 54 complaints,
                                   management did not conduct an inquiry or investigation to
                                   determine whether sexual harassment or inappropriate
                                   actions/comments had occurred, and thus no discipline or
                                   corrective action was considered or taken.

                                   In the 80 substantiated complaints, 766 employees were
                                   involved—72 were appropriately disciplined, 2 were not,
                                   1 retired, and 1 resigned. The two employees who were not
                                   appropriately disciplined were located in 2 of the 18 districts.

                                   We recommended one area vice president direct
                                   one district manager to establish controls to ensure
                                   managers/supervisors receive the appropriate discipline
                                   for sexual harassment or inappropriate actions/comments
                                   of a sexual nature. In response, the area vice president
                                   provided actions taken or planned that we believe should
                                   correct the issues identified.


5
 The term “informal” complaint refers to those not filed using the Equal Employment Opportunity process.
6
 In the Santa Ana District, two employees were involved in one complaint, and in the Albany District, one employee
was involved in two complaints.



                                                         4
Capping Report on the Postal Service’s Sexual Harassment                                        LH-AR-03-011
 Prevention Measures in 18 District Offices




    Most Managers/               We found in 9 of the 18 districts, most managers/
    Supervisors                  supervisors responsible for sexual harassment or
    Considered for               inappropriate actions/comments were considered for
    Exclusion from Pay           exclusion from the Pay for Performance Program.7
    for Performance              However, district management in three districts did not
                                 consider all managers/supervisors for exclusion. In 4 of the
                                 18 districts, none of the employees found responsible were
                                 eligible for the Pay for Performance Program. In the
                                 remaining two districts, none of the employees were found
                                 responsible and, therefore, discipline or exclusion from pay
                                 for performance was not considered.

                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not
                                 reoccur. Postal Service policy stated an employee whose
                                 conduct was clearly unacceptable might be excluded from
                                 the Pay for Performance Program. The Postal Service
                                 described unacceptable behavior as “notoriously disgraceful
                                 or immoral conduct, or other conduct prejudicial to the
                                 Postal Service.”

                                 We determined that 21 managers/supervisors were found
                                 responsible for sexual harassment or inappropriate
                                 actions/comments. All 21 were eligible to receive pay for
                                 performance. We found, however, that eight were excluded
                                 from the program. We also found that 4 of the 21, were not
                                 considered for exclusion and received pay for performance
                                 totaling $8,363. The remaining nine were considered for
                                 exclusion, however, were not excluded and received a total
                                 of $22,098.

                                 We recommended that three area vice presidents instruct
                                 three district managers to establish controls to ensure
                                 managers/supervisors disciplined for sexual harassment or
                                 inappropriate actions/comments of a sexual nature, are
                                 considered for exclusion from all pay for performance or
                                 other bonus programs. The three vice presidents agreed
                                 with the recommendation and provided us actions taken or
                                 planned that we believe should correct the issues identified
                                 in the reports.
7
 The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.



                                                      5
Capping Report on the Postal Service’s Sexual Harassment                                              LH-AR-03-011
 Prevention Measures in 18 District Offices




 Most Complaints       Our audit disclosed that 148 (59 percent) of the
 Effectively Addressed 252 complaints we reviewed were effectively addressed in
                       the 18 districts. However, the remaining 104 (41 percent)
                       complaints were not. Complaints not effectively addressed
                       could result in liability because the Postal Service cannot
                       demonstrate it exercised reasonable care to prevent and
                       promptly correct harassing behavior.

                                   Equal Employment Opportunity Commission guidelines
                                   defined an “effective” investigation as a prompt, thorough,
                                   and impartial review with documented evidence. Postal
                                   Service policy required managers to conduct sexual
                                   harassment inquiries promptly and investigate all
                                   complaints. The policy did not, however, require that “all”
                                   complaints be documented—only those that managers
                                   believed were “serious.”8

                                   We found that of the 104 complaints not effectively
                                   addressed:

                                        •   54 were not investigated
                                        •   36 were not prompt
                                        •   5 were not thorough
                                        •   5 were not documented
                                        •   2 were not thorough or documented
                                        •   1 was not impartial or documented
                                        •   1 was not impartial

                                   District managers provided several reasons why complaints
                                   were not effectively addressed. For example, in 6 of the
                                   11 districts, management stated they did not investigate
                                   34 of the 54 complaints because the complaints were filed
                                   directly with the Equal Employment Opportunity office and
                                   that office did not notify district management thus precluding
                                   them from conducting their own investigation. In another
                                   district the Human Resources manager told us that fact-
                                   finding team unavailability and holiday seasons prevented
                                   the eight complaints in his district from being promptly
                                   addressed.

8
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.



                                                          6
Capping Report on the Postal Service’s Sexual Harassment                           LH-AR-03-011
 Prevention Measures in 18 District Offices


                               We recommended that four area vice presidents and the
                               manager, Operations, instruct district managers to establish
                               controls to ensure the Equal Employment Opportunity office
                               notify district management of all sexual harassment
                               complaints. All of the vice presidents and the manager,
                               Operations agreed with the recommendation, and provided
                               actions taken or planned that we believe should correct the
                               issues identified in the reports.

                               We also recommended that all eight area vice presidents
                               and the manager, Operations, instruct district managers to
                               establish controls to ensure managers and supervisors
                               effectively address all sexual harassment complaints and
                               fully document detailed evidence of the actions taken to
                               address complaints. Two of the vice presidents agreed with
                               the recommendation in its entirety and took actions to
                               correct the problem. We believe the actions taken were
                               responsive and should correct the issues identified in the
                               reports.

                               The remaining six vice presidents and manager,
                               Operations, however, did not agree with all, or part, of the
                               recommendation and provided numerous reasons for
                               disagreement, including Postal Service policy that allowed
                               some matters to be resolved simply and directly between
                               the parties without a formal written record. They said this
                               allowed managers’ maximum flexibility and speed to deal
                               with those minor, one-time events. Management also
                               stated that to require documentation on every minor incident
                               of inappropriate workplace behavior would potentially
                               undermine the ability of supervisors to quickly and
                               effectively resolve minor workplace issues. Management
                               stated that although all matters would be fully investigated,
                               not all complaints would result in a full written record with
                               detailed evidence.

                               We did not agree with the vice presidents and manager,
                               Operations that documenting actions would potentially
                               undermine the ability of supervisors to quickly resolve minor
                               workplace issues. We believe documenting the action
                               management takes after they address the complaint has no
                               impact on how quickly a matter can be resolved. It does,
                               however, play an important role in determining credibility
                               and mitigating liability. Specifically, the reason to document
                               even a seemingly minor incident is to make a historical



                                                   7
Capping Report on the Postal Service’s Sexual Harassment                          LH-AR-03-011
 Prevention Measures in 18 District Offices


                               record in the event one is needed to establish a pattern of
                               misconduct on the part of the harasser, or to establish a
                               pattern of unsubstantiated complaints made by a
                               complainant. Moreover, evidence documenting that prompt
                               remedial actions were taken, for even minor instances of
                               inappropriate conduct could ultimately rebut allegations of a
                               hostile work environment.

                               We believe the lack of communication between the Equal
                               Employment Opportunity office and district management,
                               and the lack of a Postal Service policy requiring
                               documentation of all complaints, may have been factors in
                               why many complaints were not effectively addressed. We
                               viewed management’s disagreement on this
                               recommendation as unresolved and advised them we would
                               address it in this report.

 Recommendation                We recommend the senior vice president, Human
                               Resources, revise Postal Service policy to require that:

                                   1. District Equal Employment Opportunity offices notify
                                      district management of all complaints of sexual
                                      harassment or inappropriate actions/comments of a
                                      sexual nature.

 Management’s                  Management agreed with the recommendation and stated
 Comments                      that on March 24, 2003, district Human Resource managers
                               were advised of the Postal Service’s “Policy Regarding
                               Management Inquiries and Anonymity in Sexual
                               Harassment EEO Pre-complaints.” They said this policy
                               instructed the district Equal Employment Opportunity office
                               to notify management of all complaints of sexual
                               harassment or inappropriate actions/comments of a sexual
                               nature. Management provided the OIG a copy of the
                               March 24, 2003, transmittal memorandum and policy.

 Evaluation of                 Management’s actions taken or planned were responsive to
 Management’s                  the recommendation and should correct the issues identified
 Comments                      in the report.




                                                   8
Capping Report on the Postal Service’s Sexual Harassment                           LH-AR-03-011
 Prevention Measures in 18 District Offices




 Recommendation                We recommend the senior vice president, Human
                               Resources, revise Postal Service policy to require that:

                                   2. District management establishes controls to ensure
                                      that managers and supervisors effectively address all
                                      sexual harassment complaints and inappropriate
                                      actions/comments of a sexual nature.

 Management’s                  Management disagreed with the recommendation to the
 Comments                      extent it suggested that current controls were inadequate
                               and, therefore, it was necessary to establish additional
                               controls. Management agreed, however, that managers
                               and supervisors must make every effort to effectively
                               address all sexual harassment complaints. They said
                               controls were already in place by virtue of the mandatory
                               reporting requirement previously discussed. Management
                               also stated that area and district offices would be instructed,
                               no later than September 2003, to ensure that mandatory
                               procedures for responding to and investigating sexual
                               harassment complaints were in place. Management said
                               these procedures were set forth in Publication 552,
                               Manager’s Guide to Understanding Sexual Harassment.

 Evaluation of                 Management’s actions taken or planned were partially
 Management’s                  responsive to the recommendation because the mandatory
 Comments                      reporting requirement in Publication 552, does not provide
                               the control mechanism necessary to ensure that the
                               procedures for responding to and investigating sexual
                               harassment complaints are being followed. For example,
                               for management to ensure that managers and supervisors
                               effectively address all complaints, case file reviews like
                               those conducted during this audit, may be necessary. In
                               that way, management could assess how effective
                               managers and supervisors are when responding to
                               complaints, and make corrections when necessary.

                               We view the disagreement on this recommendation as
                               unresolved and plan to pursue it through the formal audit
                               resolution process.




                                                   9
Capping Report on the Postal Service’s Sexual Harassment                          LH-AR-03-011
 Prevention Measures in 18 District Offices




 Recommendation                We recommend the senior vice president, Human
                               Resources, revise Postal Service policy to require that:

                                   3. Managers/supervisors fully document detailed
                                      evidence of the actions taken to address all sexual
                                      harassment complaints or inappropriate
                                      actions/comments of a sexual nature.

 Management’s                  Management disagreed with the recommendation that
 Comments                      Postal Service “policy" needed to be revised and stated the
                               OIG found fault with the fact that the management inquiry
                               process allowed some investigations to be resolved without
                               the need for a written record. Management stated this
                               recommendation was based on Equal Employment
                               Opportunity Commission guidelines that were not a
                               requirement but rather guidance. Management also stated
                               that the Postal Service well understood the value of
                               documentation and encouraged documentation of even
                               simple matters. Management also stated that the Postal
                               Service, like the Equal Employment Opportunity
                               Commission, understood that a complaint procedure should
                               not be rigid, since that could defeat the goal of preventing
                               and correcting harassment.

                               Additionally, management agreed that allegations of sexual
                               harassment must be taken seriously and that every
                               allegation must be addressed. They stated, however, that
                               not all complaints would result in a full written record with
                               detailed evidence of the actions taken to address the
                               complaints. Management stated that actions taken “to
                               address complaints in a timely fashion” must be
                               documented. They stated that area and district offices
                               would be instructed no later than September 2003, to
                               document contact attempts, including follow-up letters
                               and/or telephone calls as necessary. They also stated that
                               an additional protocol may include telephone calls at home
                               offering individuals an opportunity for an immediate
                               interview.

                               Management stated that the report failed to distinguish
                               between the Equal Employment Opportunity complaint
                               process and the Postal Service’s management inquiry
                               process. They said it was important to note the Postal
                               Service is required by law to comply, and does comply, with



                                                  10
Capping Report on the Postal Service’s Sexual Harassment                          LH-AR-03-011
 Prevention Measures in 18 District Offices


                               the Equal Employment Opportunity Commission’s rules and
                               regulations. However, they said the management inquiry
                               process was an independent mechanism for investigating
                               claims and was not mandated by any rules or procedures
                               and that the Equal Employment Opportunity Commission
                               had provided guidance for these mechanisms.

                               Finally, management stated that the terms “formal” and
                               “informal” as used in the report were confusing because
                               both were used in the Equal Employment Opportunity
                               process.

 Evaluation of                 Management’s actions taken or planned were not
 Management’s                  responsive to the recommendation. Specifically,
 Comments                      management’s disagreement to revise policy to require
                               documentation of evidence of actions taken to address
                               complaints, contradicts their agreement that contact
                               attempts would be documented in a timely fashion. We
                               believe that documentation of all actions taken to address
                               complaints, is important and should be reflected in agency
                               policy.

                               In addition, we do not believe documenting action taken to
                               address complaints would defeat the goal of preventing and
                               correcting harassment. Documentation may be critical,
                               however, in proving or disproving that a “hostile work
                               environment” existed or that management took immediate
                               action to prevent such an environment.

                               Also, we do not agree with management that it was
                               necessary to distinguish between the Equal Employment
                               Opportunity process and management’s internal
                               investigative process. This report addressed the
                               effectiveness of the Postal Service’s process for addressing
                               sexual harassment complaints regardless of how they were
                               filed. In that regard, we reviewed all complaint files–formal
                               and informal.

                               Further, while we agree that the Equal Employment
                               Opportunity Commission does not mandate procedures for
                               conducting internal investigations, we believe the
                               procedures used for formal complaints can and should be
                               applied to procedures used when resolving any sexual
                               harassment complaints. Our position is based on the fact
                               that employers can be held liable if the employer fails to



                                                  11
Capping Report on the Postal Service’s Sexual Harassment                            LH-AR-03-011
 Prevention Measures in 18 District Offices


                               prove that it discharged its duty of reasonable care to
                               prevent and promptly correct any harassment. This
                               guidance does not stipulate that it is only applicable to the
                               formal process.

                               Regarding our use of the term “informal” for complaints filed
                               outside of the Equal Employment Opportunity process, our
                               intent was not to confuse the reader, but rather provide an
                               explanation of terms that some readers may not be familiar
                               with. We believe the footnote in the report is clear regarding
                               our use of the term “informal.”

                               We view the disagreement on this recommendation as
                               unresolved and plan to pursue it through the formal audit
                               resolution process.




                                                  12
Capping Report on the Postal Service’s Sexual Harassment                              LH-AR-03-011
 Prevention Measures in 18 District Offices




 File Retention and            Our audit found there was no Postal Service policy
 Storage Adequate in           regarding the retention time for informal complaint files.
 Most Districts                However, retention of informal complaint files was adequate
                               in 16 of the 18 districts, and the storage of files was
                               adequate in 13 of the 18 districts. There were two districts,
                               however, that retained files for less than 4 years, and
                               five districts where retention and/or storage could be
                               improved. For example, we found that five districts did not
                               store informal complaint files in a central location and some
                               files could not be located when we requested them.

                               Equal Employment Opportunity Commission guidance
                               stated formal sexual harassment complaint files should be
                               retained for at least 4 years after resolution of the complaint.
                               Postal Service policy stated once an inquiry/investigation
                               was conducted, files should be forwarded for storage, to the
                               district Human Resources manager. According to a
                               headquarters senior Postal Service manager, the intent of
                               this policy was to centrally locate the files with the Human
                               Resources manager.

                               We recommended that four of the area vice presidents
                               instruct district managers to establish controls to ensure all
                               informal complaint files are stored in a central location and
                               retained for at least 4 years. Three area vice presidents
                               agreed with the recommendation and provided actions
                               taken or planned that we believe should correct the issues
                               identified in the reports.

                               The vice president in one area, however, did not agree with
                               the recommendation to the extent it applied to
                               documentation of “informal” sexual harassment complaints.
                               He said Postal Service policy did not require all sexual
                               harassment complaints be documented, and, therefore,
                               there was no need for central storage procedures.

                               We believe the vice president’s comments were not
                               responsive and did not meet the intent of our
                               recommendation. Retaining and storing informal complaint
                               files in a central location ensures file availability if needed to
                               mitigate liability. We viewed the disagreement as
                               unresolved and advised management we would address it
                               in this report.




                                                  13
Capping Report on the Postal Service’s Sexual Harassment                           LH-AR-03-011
 Prevention Measures in 18 District Offices




 Recommendation                We recommend the senior vice president, Human
                               Resources, revise Postal Service policy to include a
                               requirement that:

                                   4. All informal complaint files are stored in a central
                                      location at the district or area level Human
                                      Resources office and be retained for at least 4 years
                                      after resolution of the complaint.

 Management’s                  Management disagreed with the part of the
 Comments                      recommendation that the complaint files be stored in a
                               central location. Management stated files would be kept as
                               determined by area or district management, and may be
                               kept at each work location.

                               Management agreed, however, with the recommendation to
                               retain informal complaint files for at least 4 years to the
                               extent the term “informal” referred to management inquiries
                               and internal investigations. Management also stated that
                               instructions would be forwarded to the areas and districts no
                               later than September 2003, to ensure informal complaint
                               files are being maintained in accordance with Publication
                               552, Manager’s Guide to Understanding Sexual
                               Harassment.

 Evaluation of                 Management’s actions taken or planned were not
 Management’s                  responsive to the first part of the recommendation.
 Comments                      Publication 552 required that files be forwarded to the
                               district Human Resources manager. In addition, and as
                               stated in the report, a senior Postal Service manager
                               advised us the intent of that instruction was to centralize the
                               files. Also stated in the report, is that some files were not
                               centrally located and could not be found when we requested
                               them.

                               Management’s actions taken or planned are responsive to
                               the second part of the recommendation and should resolve
                               the issues identified in the report. We do not plan to pursue
                               this recommendation through the formal audit resolution
                               process.




                                                  14
Capping Report on the Postal Service’s Sexual Harassment                                         LH-AR-03-011
 Prevention Measures in 18 District Offices




    Documentation                We were unable to determine whether 2,225 of the
    Lacking to Support           2,700 employees we sampled9 for FY 200010 received
    Employees Received           training in understanding and preventing sexual
    Sexual Harassment            harassment. This occurred because documentation in the
    Prevention Training          form of employee signatures as proof of training was lacking
                                 to support that employees had received the training. We
                                 believe the absence of national policy requiring employee
                                 signatures may have been a factor.

                                 Equal Employment Opportunity guidelines state training is
                                 an essential part of an agency’s sexual harassment
                                 prevention program. In a September 1999 memorandum, a
                                 Postal Service official stated that the Postal Service is
                                 committed to providing a work environment free of sexual
                                 harassment, and required for FY 2000, that all employees
                                 receive sexual harassment prevention training. This
                                 requirement included a minimum of 1 hour of training for
                                 craft employees and 2 hours for Executive and
                                 Administrative Schedule and Postal Career Executive
                                 Service employees. The Postal Service also required this
                                 training for FY 2003.

                                 In addition, according to a former Postal Service vice
                                 president, employees should be required to provide their
                                 signature as evidence they received sexual harassment
                                 training. He also stated that if an employee’s signature was
                                 not obtained, the employee should be retrained. Also, a
                                 district Human Resources manager told us that although
                                 there is no policy requiring employee signatures, as a result
                                 of the OIG’s Maine District report,11 the district would require
                                 signatures for all employees for future sexual harassment
                                 training.

                                 Our analysis showed that for FY 2000, the 18 districts
                                 could not provide employee signatures for 2,225 of the
                                 2,700 employees that management said had received
                                 sexual harassment prevention training. Seventeen districts
                                 provided employee signatures for 475 employees. The

9
  We randomly selected 150 employees for each of the 18 districts. For more information about our scope and
methodology, see Appendix C.
10
   We reviewed sexual harassment prevention and awareness training records for FY 2000 because it was the most
recent year for which the Postal Service mandated training on a national level.
11
   Sexual Harassment Prevention Measures in the Maine District (Report Number LH-AR-02-002, dated March 22,
2002).



                                                      15
Capping Report on the Postal Service’s Sexual Harassment                         LH-AR-03-011
 Prevention Measures in 18 District Offices


                               districts also provided other forms of documentation they
                               said proved employees had received training, such as time
                               and attendance reports (that did not indicate the specific
                               training attended nor contain employee signatures), and
                               documentation certified by a manager or supervisor that all
                               employees under their supervision had received the
                               training.

                               The chart below depicts the total number of employees
                               sampled for FY 2000 and the number of signatures that
                               were provided as proof that training was received.


                                       FY 2000 SEXUAL HARASSMENT TRAINING
                                               SAMPLE RECORDS: 2,700


                                       Without
                                      Employee                                With
                                      Signature                             Employee
                                        2,225                               Signature
                                                                               475




                               Requiring employee signatures would ensure that all
                               employees received the required sexual harassment
                               training and would provide evidence of the Postal Service’s
                               good faith effort to comply with Equal Employment
                               Opportunity guidelines.

 Recommendation                We recommend the senior vice president, Human
                               Resources, establish a policy that requires:

                                   5. Employee signatures on training sign-in sheets as
                                      proof they received sexual harassment prevention
                                      and awareness training.




                                                  16
Capping Report on the Postal Service’s Sexual Harassment                         LH-AR-03-011
 Prevention Measures in 18 District Offices



 Management’s                  Management disagreed with the recommendation to the
 Comments                      extent that it suggested employee signatures were the sole
                               means to prove attendance. Management also stated there
                               are currently no requirements to obtain signatures from
                               employees as proof that employees received training.

                               Management agreed, however, that employee training
                               should be documented, and stated that other forms of
                               documentation was provided to the OIG such as time and
                               attendance reports, and certifications by managers/
                               supervisors that employees had received the training.
                               Management stated other documents could also be used as
                               documentation including local training records, national
                               training database reports, and records documenting the
                               date, location, subject matter, and the employees in
                               attendance. Management also stated to ensure that
                               employee training was documented, each area and district
                               office would be instructed no later than September 2003, to
                               ensure that procedures for documentation are in place.

                               Finally management stated that the nine area reports issued
                               by the OIG did not discuss the districts’ compliance with the
                               Postal Service’s FY 2000 national sexual harassment
                               training policy. In addition, they stated that the areas or
                               headquarters were not provided the opportunity to comment
                               on whether or not any of the 2,225 employees sampled,
                               received the training.

 Evaluation of                 Management’s actions taken or planned were not
 Management’s                  responsive and did not meet the intent of our
 Comments                      recommendation. As stated in the report, requiring
                               employee signatures would ensure that all employees
                               received the required sexual harassment training and would
                               provide evidence of the Postal Service’s good faith effort to
                               comply with Equal Employment Opportunity guidelines. We
                               believe employee signatures are the best assurance that
                               employees have received the required training.
                               Management’s suggested methods of documentation do not
                               provide the same assurance. We recognize, however, there
                               may be times when employees refuse to sign training
                               rosters. In those cases, a manager/supervisor certification
                               that the employee was observed in attendance would be
                               acceptable.




                                                  17
Capping Report on the Postal Service’s Sexual Harassment                           LH-AR-03-011
 Prevention Measures in 18 District Offices


                               We agree that the nine area reports did not discuss the
                               districts’ compliance with the Postal Service’s FY 2000
                               national sexual harassment training policy. This was
                               intentional because issues related to national policies are
                               best addressed at the headquarters level. We do not agree
                               that the areas or headquarters were not provided the
                               opportunity to comment on whether or not any of the
                               2,225 employees sampled, received the training. This
                               report was addressed to the headquarters level for
                               comment, with copies to all 18 district managers and the
                               9 area vice presidents. In addition, we made two telephone
                               calls to responsible headquarters’ officials during the report
                               comment period to discuss any questions they might have
                               about our findings. Our telephone calls were not returned.
                               Finally, we approved a headquarters’ request to extend the
                               30-day comment period by 2 weeks, that we understand
                               may have been used to solicit area and/or district
                               comments.

                               We do not plan to pursue this recommendation through the
                               formal audit resolution process.

 Recommendation                We recommend the senior vice president, Human
                               Resources, establish a policy that requires:

                                   6. Controls to review training sign-in sheets to ensure
                                      that all employees received the required training.

 Management’s                  Management disagreed with the recommendation that
 Comments                      districts should establish additional controls. They stated,
                               however, that consistent with operational requirements,
                               areas and districts would be instructed, no later than
                               September 2003, to ensure that training is documented and
                               every effort is made to schedule make-up sessions to
                               ensure that as many employees as possible are trained.

 Evaluation of                 Management’s actions taken or planned were not
 Management’s                  responsive and did not meet the intent of our
 Comments                      recommendation. We believe management’s review of
                               training sign-in sheets is the best assurance that all
                               employees have received the training. We do not plan to
                               pursue this recommendation through the formal audit
                               resolution process.




                                                  18
Capping Report on the Postal Service’s Sexual Harassment                          LH-AR-03-011
 Prevention Measures in 18 District Offices




 Recommendation                We recommend the senior vice president, Human
                               Resources, establish a policy that requires:

                                   7. The retention of employee training sign-in sheets at a
                                      central location for at least 4 years.

 Management’s                  Management agreed with the part of the recommendation
 Comments                      that employee training documentation should be retained for
                               at least 4 years. Management disagreed, however, that the
                               documents be stored at a central location. Management
                               stated training records would be stored at each work
                               location or at a location determined by the area or district
                               management. They also stated that instructions to that
                               effect would be provided to each area and district office no
                               later than September 2003.

 Evaluation of                 Management’s actions taken or planned were responsive to
 Management’s                  the part of the recommendation regarding retention of
 Comments                      training documentation for at least 4 years. However,
                               management was not responsive to the part of the
                               recommendation regarding the need to centrally store sign-
                               in sheets. We believe central storage of these documents
                               ensures their availability if needed to support employees
                               received the required sexual harassment prevention
                               training. We do not plan to pursue this recommendation
                               through the formal audit resolution process.




                                                  19
Capping Report on the Postal Service’s Sexual Harassment                  LH-AR-03-011
 Prevention Measures in 18 District Offices


                          APPENDIX A
      LIST OF AUDIT REPORTS FOR NINE AREAS OF OPERATION

Sexual Harassment Prevention Measures in the Chicago and Detroit Districts – Great
Lakes Area (Report Number LH-AR-03-001, dated January 15, 2003).

Sexual Harassment Prevention Measures in the Long Island and Northern New Jersey
Districts – New York Metro Area (Report Number LH-AR-03-002, dated January 16,
2003).

Sexual Harassment Prevention Measures in the Northern Virginia and Richmond
Districts – Capital Metro Operations (Report Number LH-AR-03-003, dated January 30,
2003).

Sexual Harassment Prevention Measures in the Albany and Southeast New England
Districts – Northeast Area (Report Number LH-AR-03-004, dated February 25, 2003).

Sexual Harassment Prevention Measures in the Central Florida and South Georgia
Districts – Southeast Area (Report Number LH-AR-03-005, dated March 5, 2003).

Sexual Harassment Prevention Measures in the Greensboro and Harrisburg Districts –
Eastern Area (Report Number LH-AR-03-006, dated March 5, 2003).

Sexual Harassment Prevention Measures in the Dakotas and Portland Districts –
Western Area (Report Number LH-AR-03-007, dated March 5, 2003).

Sexual Harassment Prevention Measures in the Oakland and Santa Ana Districts –
Pacific Area (Report Number LH-AR-03-008, dated March 18, 2003).

Sexual Harassment Prevention Measures in the Arkansas and Rio Grande Districts –
Southwest Area (Report Number LH-AR-03-009, dated March 25, 2003).




                                                  20
          Capping Report on the Postal Service’s Sexual Harassment                                           LH-AR-03-011
           Prevention Measures in 18 District Offices


                      APPENDIX B. GENERAL FINDINGS IN EACH DISTRICT
                                                    All/Most               All/Most          All/Most
                                 Policies/                                                                    File               File
                                                   Employees           Managers Were        Complaints
 Area of                        Procedures                                                                  Retention          Storage
                  District                            Were              Considered for         Were
Operation                          Were                                                                       Was               Was
                                                  Appropriately         Exclusion from      Effectively
                                 Adequate                                                                   Adequate          Adequate
                                                   Disciplined         Bonus12 Program      Addressed
Capital        Northern
                                     Yes               Yes                   Yes                 No             Yes             Yes
Metro          Virginia
Capital        Richmond
                                     Yes               Yes                   Yes                 No             Yes             Yes
Metro
Eastern        Greensboro            Yes               Yes                  N/A13                No             Yes             No
Eastern        Harrisburg            Yes              N/A14                 N/A14                No             No              No
Great          Chicago
                                     Yes               Yes                   Yes                 No             Yes             Yes
Lakes
Great          Detroit
                                     Yes               Yes                   Yes                Yes             Yes             No
Lakes
New York       Long Island
                                     Yes               Yes                  N/A13               Yes             Yes             Yes
Metro
New York       Northern
                                     Yes               Yes                   Yes                Yes             Yes             Yes
Metro          New Jersey
Northeast      Albany                Yes               Yes                   Yes                Yes             Yes             Yes
Northeast      Southeast
               New                   Yes               Yes                   Yes                Yes             Yes             Yes
               England
Pacific        Oakland               Yes               Yes                   Yes                 No             No              No
Pacific        Santa Ana             Yes               Yes                   Yes                 No             Yes             Yes
Southeast      Central
                                     Yes               Yes                   No                 Yes             Yes             Yes
               Florida
Southeast      South
                                     Yes               Yes                  N/A13               Yes             Yes             Yes
               Georgia
Southwest      Arkansas              Yes               Yes                  N/A13               Yes             Yes             Yes
Southwest      Rio Grande            Yes               Yes                   No                  No             Yes             Yes
Western        Dakotas               Yes              N/A14                 N/A14               Yes             Yes             No
Western        Portland              Yes               Yes                   No                 Yes             Yes             Yes


          12
             The bonus program was the Pay for Performance Program, formerly referred to as the Economic Value Added
          Program.
          13
             Of the employees found responsible for sexual harassment or inappropriate actions/comments, none were eligible
          for the Pay for Performance Program.
          14
             None of the employees were found responsible for sexual harassment or inappropriate actions/comments and,
          therefore, discipline was not considered.




                                                                  21
Capping Report on the Postal Service’s Sexual Harassment                                                LH-AR-03-011
 Prevention Measures in 18 District Offices


          APPENDIX C. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the 18 districts, in the nine areas of operations,
implemented adequate policies and procedures to prevent sexual harassment15 in the
workplace and to effectively address sexual harassment complaints to mitigate liability.
Our district selections were based on interviews with the senior vice president, Human
Resources; former vice president, Diversity Development; the 18 district managers;
8 area vice presidents; and the Capital Metro Operations manager. We also considered
the number of closed formal sexual harassment complaints in each of the 18 districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines;
Postal Service national policies; and the area and district policies for preventing sexual
harassment in the workplace. We also reviewed Postal Service national policy
regarding the Pay for Performance Program. In addition, we reviewed previously issued
OIG reports related to sexual harassment issues. Further, we interviewed Postal
Service Headquarters, area and district officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, area, and district
policies and procedures to determine if the recommendations were included.

To determine if Postal Service employees received the required FY 2000 sexual
harassment awareness training, we randomly selected 150 employees from each of the
18 districts for a total of 2,700 employees. We chose FY 2000 for our review because it
was the most recent year where the Postal Service mandated training on a national
level. We then provided each district a listing of the 150 selected employees for their
district, and requested they provide us with the training sign-in sheet(s) showing the
signature for each employee—indicating the employees received the training. We
informed the districts they could also send other forms of documentation, such as clock
rings, if verification of employee training was supported by a method other than sign-in
sheets.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained in
formal and informal complaint files that were filed and closed16 in FYs 2000 and

15
   For the purpose of this report, we used the legal definition of sexual harassment defined in 29 C.F.R. § 1604.11(a).
In addition, we included the Postal Service policy regarding inappropriate actions/comments of a sexual nature when
reviewing sexual harassment complaint files.
16
   Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.



                                                          22
 Capping Report on the Postal Service’s Sexual Harassment                                             LH-AR-03-011
  Prevention Measures in 18 District Offices


 2001,17 for the 18 districts we selected. We recorded information related to promptness,
 thoroughness, impartiality, and the level of documentation. These fiscal years were
 chosen because they were the most recent and complete fiscal years at the time of our
 fieldwork. The number of formal and informal closed complaints was obtained from the
 Postal Service Equal Employment Opportunity case file database and district
 management, respectively. We then excluded those complaints where the employees
 filed their complaints directly with the Equal Employment Opportunity office and
 requested confidentiality. These were excluded because honoring the request for
 confidentiality precluded the Equal Employment Opportunity office from notifying district
 management that a complaint had been made. This in turn precluded management
 from conducting an investigation. We determined there were 252 closed complaint files
 as follows:

                                                                       Complaints              Total Complaints
  Area of Operation                        District
                                                                    Formal Informal               Per District
Capital Metro                   Northern Virginia                     4          5                     9
Capital Metro                   Richmond                              3          5                     8
Eastern                         Greensboro                            11         7                    18
Eastern                         Harrisburg                            2          0                     2
Great Lakes                     Chicago                               13         5                    18
Great Lakes                     Detroit                                4         0                     4
New York Metro                  Long Island                           3          3                     6
New York Metro                  Northern New Jersey                   9         25                    34
Northeast                       Albany                                 5         7                    12
Northeast                       Southeast New England                  4         6                    10
Pacific                         Oakland                               13         4                    17
Pacific                         Santa Ana                             10         2                    12
Southeast                       Central Florida                       9         15                    24
Southeast                       South Georgia                          3         9                    12
Southwest                       Arkansas                               2         4                     6
Southwest                       Rio Grande                            13         7                    20
Western                         Dakotas                               2          2                     4
Western                         Portland                              9         27                    36
   Total                                                             119       133                    252

 We also determined if the retention and storage of informal files were adequate using
 Postal Service national, area, and district policies as well as Equal Employment
 Opportunity Commission guidelines.

 In addition, we determined whether employees found responsible for sexual harassment
 received appropriate discipline using Equal Employment Opportunity Commission
 guidelines, Postal Service policies and procedures, and some elements of the Douglas

 17
      We used Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.



                                                          23
Capping Report on the Postal Service’s Sexual Harassment                                           LH-AR-03-011
 Prevention Measures in 18 District Offices


Factors.18 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through August 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




18
  The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration) where the
Merit Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.



                                                       24
Capping Report on the Postal Service’s Sexual Harassment   LH-AR-03-011
 Prevention Measures in 18 District Offices


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                                  25
Capping Report on the Postal Service’s Sexual Harassment   LH-AR-03-011
 Prevention Measures in 18 District Offices




                                                  26
Capping Report on the Postal Service’s Sexual Harassment   LH-AR-03-011
 Prevention Measures in 18 District Offices




                                                  27
Capping Report on the Postal Service’s Sexual Harassment   LH-AR-03-011
 Prevention Measures in 18 District Offices




                                                  28
Capping Report on the Postal Service’s Sexual Harassment   LH-AR-03-011
 Prevention Measures in 18 District Offices




                                                  29
